                                                                       2000.04 REV-2 Change 12


CHAPTER 7.      FHA-APPROVED LENDERS AUDIT GUIDANCE

7-1   Program Objective. The U.S. Department of Housing and Urban Development
      (HUD) insures loans and mortgages made by private and governmental, financial, and
      mortgage lending institutions to finance the purchase. refinancing, or construction of
      single-family homes and multifamily projects. HUD approves such institutions for
      participation in the Federal Housing Administration (FHA) insurance programs for
      Title I property improvement and manufactured housing loans and for Title II single-
      family and multifamily mortgages. After initial approval, institutions are required to
      recertify annually to maintain their FHA-approved status.

      As defined in 24 CFR (Code of Federal Regulations) Part 202, a “lender” or ‘Title I
      lender” is a financial institution that (a) holds a valid Title I contract of insurance and is
      approved by the HUD Secretary or (b) is under suspension or held a Title I contract that
      has been terminated but remains responsible for servicing or selling Title I loans that it
      holds and is authorized to file insurance claims on such loans. A rnortgagee” or “Title
      II mortgagee” is a mortgage lender that is approved to participate in the Title II
      programs.

      As it revises its various requirements, FHA is adopting a common industry practice of
      using the terms “lender” and “borrower” for all of its programs and discontinue the use
      of the terms “mortgagee” and “mortgagor.” Throughout this guide, we use the terms
      “lender” and “borrower” to include Title II “mortgagee” and “mortgagor,” respectively.
      Auditors should be aware that existing guidance and Federal regulations may continue
      to use both sets of terminology.

7-2   Lender Approval Types. HUD has four types of lenders that are approved for
      participation (refer to 24 CFR 202.6 through 202.10).

      A. Supervised Lenders. Supervised lenders are financial institutions that are
         members of the Federal Reserve System (FRS) or institutions with accounts insured
         by the Federal Deposit Insurance Corporation (FDIC). the Office of the Comptroller
         of the Currency (0CC), or the National Credit Union Administration (NCUA).
         Supervised lenders may originate, underwrite, purchase, hold, service, or sell FHA
         insured loans.

         1. Small Supervised Lenders. Small supervised lenders are members of FRS or
            regulated by FDIC, 0CC, or NCUA, the consolidated assets of which do not
            meet the threshold required by those agencies for submitting audited financial
            statements (delineated at 12 CFR 363.1(a), 562.4(b)(2), and 715.4(c)).

         2. Large Supervised Lenders. Large supervised lenders are those lenders that
            are members of FRS or regulated by FDIC. 0CC, or I’CUA. the consolidated



                                              7-1
                                                                                          12/2012
                                                                    2000.04 REV-2 Change 12


              assets of which are equal to or greater than the prevailing threshold required by
              those agencies for submitting audited financial statements (delineated at 12
              CFR 363.1(a). 562.4(b)(2). and 715.4(c)).

      B. Non-supervised Lenders. Non-supervised lenders are lending institutions that
         have as their principal activity the lending or investing of funds in real estate
         mortgages. consumer installment notes. or similar advances of credit or the
         purchase of consumer installment contracts and are not approved as supervised, as
         described in paragraph A above, or as government lenders, as described in
         paragraph D below. A non-supervised lender may originate, purchase, hold.
         service, or sell all types of FHA-insured loans, including multifamily loans.

      C. Investing Lenders. Investing lenders may purchase, hold, or sell FFIA-insured
         loans but may not originate FHA-insured loans in their own name or submit
         applications for the insurance of mortgages. An investing lender may not service
         FHA-insured loans without prior approval of the HUD Secretary. Investing lenders
         are generally required to provide only audited financial statements and a
         computation of adjusted net worth. Those investing lenders that are authorized to
         service FHA-insured mortgages are also required to submit a report on internal
         controls and a report on compliance.

      D. Governmental Lenders. Government lenders are Federal, State, or municipal
         governmental agencies; a Federal Reserve bank, a Federal home loan bank, the
         Federal Home Loan Mortgage Corporation (Freddie Mac), or the Federal National
         Mortgage Association (Fannie Mae).       A government lender may originate,
         purchase. service, or sell FHA-insured loans, including multifamily loans. No
         financial reporting is required.

      Title I lenders are approved to process or service loans for property improvements and
      the purchase of manufactured housing. Title II lenders are approved to process or
      service loans for single-family homes and multifamily projects. A lender may be
      approved for both Title I and Title II programs; lenders approved for both types of
      programs will have different lender identification numbers for Title I and Title II.

      These institutions are approved on the basis of their financial capacity, experience,
      facilities, and other criteria as specified in HUD Handbook 4060.1, Mortgagee
      Approval Handbook, HUD Handbook 4700.2. Title I Lender Approval Handbook. and
      subsequent mortgagee letters and Title I letters.

7-3   Audit and Reporting Requirements. The following chart is a summary of the
      financial reporting requirements for supervised and non-supervised lenders. A more
      detailed explanation of the financial reporting requirements is also provided below.




                                            7-2
                                                                                      12/2012
                                                                               2000.04 REV-2 Change 12


                                                                            Financial data
                                        Level of          Audited           templates,          Net worth
                                        financial         consolidating     including net       schedule
              Scenario                  statements        schedules         worth schedule      (audited)
                                                     Supervised lenders
              Stand-alone bank              Bank                 N/A              Bank              Bank
              Bank? 40% of
          .   consolidated entity: no   Consolidated         Not required    Consolidated           Bank
              guarantee by parent
              Bank <40% of
              consolidated entity;      Consolidated         Not required    Consolidated           Bank
              guarantee by parent
              Bank <40% of
              consolidated entity; no   Consolidated          Required           Bank               Bank
              guarantee by parent
              Multiple banks, each
              <40% of consolidated
                 .                      Consolidated          Required        Each Bank          Each Bank
              entity; no guarantee by
              parent
                                              Non-supervised lenders
              Stand-alone lender           Lender        Lender                 Lender            Lender
              Lender in a parent/
                     .                     Lender             Required          Lender            Lender
              subsidiary structure
                         .




        Except for governmental
                    1 and small supervised lenders, all FHA-approved lenders are
        required to have an annual audit in accordance with this guide regardless of the
        number of loans originated or serviced. All required audits are to be submitted
        within 90 days of the close of the lender’s fiscal year. Audits must be performed in
        accordance with the most currently effective Government Accountability Office
        generally accepted government auditing standards (GAGAS, also referred to as the
        “Yellow Book”), auditing standards generally accepted in the United States of America
        (GAAS) as issued by the American Institute of Certified Public Accountants (AICPA),
                                                                                    2
        and this guide.

        If the supervised or non-supervised lender is also a Government National Mortgage
        Association (Ginnie Mae) approved issuer and wants to have the same audited financial
        statements satisfy both FHA and Ginnie Mae, the financials will also have to be
        prepared in accordance with Ginnie Mae’s requirements (See chapter 6 of this guide).


  Governmental lenders follow the audit requirements of the Single Audit Act as set forth in 24 CFR 44.
  The Public Company Accounting Oversight Board (PCAOB) has established professional standards that apply to
financial audits of publicly traded companies with a reporting obligation under the Securities Exchange Act of
1934. As noted in the “Yellow Book,” auditors may elect to use the PCAOB standards in conjunction with
GAGAS.


                                                       7-3
                                                                                                    12/2012
                                                              2000.04 REV-2 Change 12


Unqualified opinions in the audit report on the financial statements and compliance are
acceptable for recertification. If either opinion is qualified, HUD will determine, on a
case-by-case basis, whether a report with a qualification is acceptable for recertification
purposes. In addition to the detailed description of the reason for the qualification in
the audit report. an appropriate finding may need to be included by the auditor in the
schedule of findings and recommendations. When findings are reported, a corrective
action plan prepared by the lender must accompany the audit findings. For additional
information on the required audit reports and suggested wording. please refer to chapter
2 of this guide, which contains examples.

In some instances, a HUD-approved lender may enter into arrangements whereby the
responsibility for performing certain required procedures transfers to another HUD
approved entity. A common example is when a lender originates a loan and later sells
the loan and the related servicing to another HUD-approved entity. In these situations,
the lender must comply with any required activities for the period during which it is
legally obligated to perform those services, and the independent auditor would report
on the lender’s compliance during that period. After the transfer of responsibility to
another party, the independent auditor for the entity acquiring those responsibilities
would report on that party’s compliance with HUD requirements.

A. General Audit Requirements. The audit reporting package must include:

   1. Audit of the Financial Statements and Supplementary Information.

       a. The basic financial statements prepared in accordance with generally
          accepted accounting principles (GAAP) and the independent auditors report
          thereon in accordance with GAAS and GAGAS.

       b. The independent auditor’s report must cover the lender’s computation of its
          adjusted net worth, the hardcopy of the electronic submission, and if
          applicable, consolidating schedules.    The auditofs reporting on this
          information should be done in accordance with GAAS relating to
          “Supplementary Information in Relation to the Financial Statements as a
          Whole.”

   2. Internal Control Report.

      The internal control reports, which do not include the expression of the
      independent auditor’s opinion, must include

      a. An independent auditor’s report on internal control over financial reporting
         based on an audit of financial statements. If the lender engages the auditor
         to provide an opinion on internal control over financial reporting, as
         required either by FDIC or under the standards of the Public Company


                                      7-4
                                                                                 12/20 12
                                                                                   2000.04 REV-2 Change 12


                        Accounting Oversight Board, such reporting may be submitted for this
                        requirement.

                   b. An independent auditor’s report on internal control over compliance with
                      HUD-assisted programs.       This report may he combined with the
                      independent auditors report on internal control over financial reporting.

                   Alternatively, auditors may issue combined reports (1) on internal control over
                   financial reporting and compliance based on the audit of the financial
                   statements under GAGAS and (2) on compliance and internal control over
                   compliance with major HUD programs.

              3. Compliance Report.

                   The compliance report relating to major HUD programs must include

                   a. A listing of compliance areas tested.

                   b. An independent auditor’s opinion on compliance with specific program
                      requirements that could have a. direct and material effect on each major
                      HUD-assisted program.
                                    3

              4. Schedule of Findings and Questioned Costs. This is required for all material
                 instances of noncompliance, and significant deficiencies and material
                 weaknesses in internal control identified by the auditor (including those cases in
                 which corrective action was taken by the lender on the finding after the end of
                 the fiscal year). Refer to section 7-9 of this chapter for information on reporting
                 findings.     A management letter reporting all immaterial instances of
                 noncompliance should accompany the compliance report.

              5. Corrective Action Plan. This is prepared by the lender using the lenders
                 letterhead, in which the lender describes the corrective action taken or planned
                 in response to the findings identified by the auditor. The plan should also
                 include comments on the corrective action taken on prior findings resulting
                 from relevant HUD. Office of Inspector General audits and HUD program
                 rev jews.




  A major program is defined as an individual assistance program or a group of programs in a category of Federal
financial expenditures. which is equal to or exceeds the amount shown in the threshold table in chapter 1 of this
guide during the applicable year or a project that has an outstanding HUD-insured or HUD-guaranteed loan
balance, which is equal to or exceeds the amount shown in the table as of the reporting date.


                                                       7-5
                                                                                                        12/20 12
                                                          2000.04 REV-2 Change 12


B. Reporting Requirements for Lenders in Parent-Subsidiary Structures

   1. Non-supervised Lenders. For non-supervised lenders. HUD will accept the
      audits of the consolidated financial statements of the parent if they include
      consolidating schedules that distinguish the balance sheets and operating
      statements of each FRA-approved subsidiary and the computation of adjusted
      net worth of each FHA-approved subsidiary. Such information must be
      subjected to audit procedures in accordance with GAAS relating to
      “Supplementary Information in Relation to the Financial Statements as a
      Whole.”

  2. Large Supervised Lenders. Supervised lenders in parent-subsidiary structures
     (i.e., subsidiaries) are permitted to submit the audited consolidated financial
     statements of a parent company, without audited or unaudited consolidating
     schedules if one of the following conditions is met:

      a. The FHA-approved subsidiary owns at least 40 percent of the assets on the
         consolidated balance sheet or

     b. The FHA-approved subsidiary provides FHA with an executed copy of a
        corporate guaranty agreement between it and the parent company in which
        the parent company guarantees the ongoing net worth and liquidity
        compliance of the FHA-approved subsidiary. At the time of the revision of
        this chapter, FHA was finalizing a standardized agreement (see attachment
        E) and will require lenders to use this agreement or obtain prior approval to
        use a different agreement.

     A supervised FHA-approved lender electing to submit audited consolidated
     financial statements pursuant to one of the above-mentioned conditions must
     submit its fourth quarter call report as an attachment to its electronic
     submission. Additionally, the reports on internal control and compliance at the
     FHA-approved subsidiary’s level must be included as an attachment to the
     FHA-approved lender’s electronic submission.

 3. Investing Lender. Investing lenders in parent-subsidiary structures are
    permitted to submit the audited consolidated financial status of the parent as
    allowed in paragraphs B.1 and B.2 above.

    Investing lenders are required to submit audited financial statements and an
    audited computation of adjusted net worth. Investing lenders that have been
    approved to service FHA loans must also submit reports on internal control and
    compliance.




                                  7-6
                                                                           12/2012
                                                                                    2000.04 REV-2 Change 12


          C. Reporting Requirements for Small Supervised Lenders. Small supervised
             lenders are not required to submit audited financial statements to FHA or an audited
             computation of adjusted net worth. Such lenders must submit a copy of their
             unaudited regulatory report (i.e.. report of condition and income, also known as the
             “call report” and submitted on the Federal Financial Institutions Examination
             Council forms 031 and 041, or a consolidated or fourth quarter NCUA call report,
             submitted on NCUA Form 5300 or 5310). signed by an officer, that aligns with
             their fiscal yearend.       Unaudited regulatory reports should be submitted
             electronically via email to smal Lsupervised lenders(dhud.gov until further guidance
                                                                   .




             is issued.

 7-4      Electronic Submission of Audited Financial Statements and Compliance Data.        4
          All FHA-approved lenders are required to electronically submit their financial and
          compliance data to the Lender Approval and Recertification Division through FHA’s
          electronic data system within 90 days of the close of the end of their fiscal year. The
          submission must be based on the signed issued paper copy of the audit of the lender’s
          financial statements, supplemental information, and the signed independent auditor’s
          report containing the auditor’s opinion. A copy of the issued signed hardcopy of the
          financial statements, supplemental information, and the signed independent auditor’s
          report(s) must be submitted electronically.

         Lenders that are approved by both FHA and Ginnie Mae must complete the electronic
         submission of their financial and compliance data through FHA’s electronic system and
         submit their audited financial statements to Ginnie Mae in accordance with the Ginnie
         Mae Mortgage-Backed Securities Guide.

         A. Auditor Involvement in the Electronic Submission Process. The responsibility
            for the electronic submission of the lender’s financial and compliance data rests
            with the lender; however, the auditor is required to perform a separate agreed-upon
            procedures engagement to determine whether the financial data entered into HUDs
            electronic system by the lender are accurate and reconcile with the data on the
            lender’s hardcopy audited financial statements that are contained in the issued
            signed audit report. In general, the auditor must compare the electronic data
            transmitted to HUD to the hardcopy of the basic financial statements, supplemental
            information, footnotes. the signed independent auditor’s reports, the computation of
            adjusted net worth, and financial data templates. This procedure should be
            performed under the current AJCPA Statements on Standards for Attestation
            Engagements for Agreed Upon Procedures Engagements.




 FRA maintains an electronic data system for the receipt and processing of audited financial statements for Title I
and Title 11 lenders. Fl-IA’s current system is known as the Lender Assessment Subsystem (LASS).


                                                       7-7
                                                                                                         12/2012
                                                                  2000.04 REV-2 Change 12


      B. Extension Requests. A request for a 30-day extension must be submitted to HUD
         management. through the electronic system. no earlier than 45 days before the
         electronic submission due date and no later than 15 days before the submission due
         date.

      C. Operating Loss Reporting. Approved lenders must submit either audited or
         unaudited financial statements to HUD, within 30 days of the end of each fiscal
         quarter in which the lender experiences an operating loss of 20 percent or greater of
         its net worth and must continue to make submissions until the lender demonstrates
         an operating profit for two consecutive quarters or until the next annual
         recertification by FHA, whichever is the longer period (24 CFR 202.5(m)(l)). The
         submission should be ernailed to lassIhud.gov.

7-5   Compliance Requirements and Suggested Audit Procedures Applicable to Both
      Title I and Title II Lenders.

      A. Quality Control Plan.

         1. Compliance Requirement. The adoption and implementation of a quality
            control plan is a required element of a lender’s application for approval to
            participate in FHA programs. FHA-approved lenders are required to

             a. Originate and service HUD-insured mortgages in accordance with accepted
                practices of prudent lending and comply with all relevant HUD rules and
                regulations.

             b. Maintain quality control plans consistent with the requirements of chapter 7
                of HUD Handbook 4060.1 (Title II) or chapter 6 of HUD Handbook 4700.2
                (Title I) as applicable.

            c. If they use third-party originators (TPO), ensure that the direct endorsement
               lender has a quality control plan that requires the review of loans that are
               originated by the TPO.

            d. Review all loans that are originated or underwritten by their company or
               originated by a sponsored TPO that go into default within the first six
               payments (referred to as early payment default).

            e. Review a sampling of rejected applications (see suggested audit procedure
               below in 7-5.D.2.d.).

            f.   Immediately report to HUD. via Neighborhood Watch, fraud or material
                 violations of Fl-IA requirements that, based on the auditor’s judgment,



                                          7-8
                                                                                    12/2012
                                                         2000.04 REV-2 Change 12


       represent a significant risk to the FHA insurance fund (paragraph 7-3(J),
       HUD Handbook 4060.1, REV-2).

2. Implementation. FHA-approved lenders must implement a quality control
   plan consistent with their needs and the above-referenced guidance to assist
   corporate management in determining whether their personnel are following
   HUD requirements and corporate policies and procedures. Lenders must ensure
   the following:

   a. Quality control reviews are performed on a regular and timely basis.
      Depending on a lender’s production volume, origination reviews may be
      performed weekly, monthly, or quarterly. The review of a specific
      mortgage should be completed within 90 days of closing.

   b. Reviews of different aspects of servicing will vary in frequency; however,
      delinquent servicing and loss mitigation activities should be reviewed
      monthly. Timing and frequency of quality control reviews is addressed in
      the Origination and Servicing sections of HUD Handbook 4060.1.

   c. The quality control function must be independent of the origination and
      servicing functions.

   The quality control procedures may be conducted by the entity itself internally,
   by personnel not involved in any aspect of loan origination or servicing, or by
   an external reviewer (see 24 CFR 202.5(h)).

3. Suggested Audit Procedures.

   a. Obtain a copy of the lender’s quality control plan and compare it to the
      general and specific requirements contained in chapter 7 of HUD Handbook
      4060.1 or chapter 6 of HUD Handbook 4700.2 as applicable.

   b. Deterniine whether the lender has a procedure in place to disseminate
      quality control policies and procedures to all employees involved in loan
      origination and servicing.

  c. Determine whether the lender has guidelines to revise its procedures in a
     timely manner to accurately reflect changes in HUD requirements, that
     personnel are informed of the changes, and that employees are held
     accountable for performance failures and errors.

  d. Determine whether the lender has procedures for reviewing and monitoring
     its sponsored third-party originators. At a minimum, these procedures must
     include the requirements outlined in “Basic Requirements for Quality


                                7-9
                                                                          12/2012
                                                           2000.04 REV-2 Change 12


      Control of Single Family Production” in chapter 7 of HUD Handbook
      4060.1 and Mortgagee Letter 201 1-02.

 e. Determine whether the quality control plan requires that all mortgage
    change records be reviewed for accuracy of sale. transfer of loans, and
    terminations of insurance.

      (1) For cases involving the transfer of legal rights to service FHA-insured
          loans,

         (a) The transferee is required to report the change of legal rights to
             service” to HUD.

         (b) The transferor is required to verify that the “change of legal rights to
             service” has been reported and that all of the details contained in the
             report are accurate.

     (2) For cases involving the holder’s sale of loans,

         (a) The holder (seller) is required to report the “sale of loans” to HUD
             within 15 calendar days, and

         (b) The buyer is required to confirm that the “sale of loans” has been
             reported and that all of the details contained in the report are
             accurate.

f.   Determine whether the lender has a procedure for expanding the scope of
     quality control reviews as required by chapter 7, paragraph 7-3.F of HUD
     Handbook 4060.1 when fraudulent activity or patterns of deficiencies are
     identified.

g. Inquire into whether the lender relies on an internal or external quality
   control review of its origination, underwriting, and servicing functions.

     (1) If the lender relies on an internal review,

        (a) Verify that the quality control system is separate and apart from the
            loan processing and underwriting process and is carried out by
            knowledgeable personnel not involved in loan processing and
            underwriting.

             i. Check the employee or contractor listing or organization chart
                and loan production report provided by the lender to ensure that




                                7-10
                                                                           12/2012
                                                            2000.04 REV-2 Change 12


                  the personnel are not involved in the day-to-day processes that
                  they are reviewing and

              ii. Interview the personnel identified as the quality control
                  reviewers. Inquire about their roles and responsibilities, how
                  loans are selected, what occurs during a review, steps taken when
                  fraud is suspected, to whom they report, how deficiencies are
                  resolved, and what they are to do when they note any other type
                  of irregularity during their quality control reviews of the loan
                  files.

          (b) Determine whether the lender provided the staff access to current
              guidelines relating to the operations it is responsible to review. It is
              not necessary to maintain these guidelines in hardcopy format if they
              are accessible in an electronic format.

      (2) If the lender relies on an outside review firm,

         (a) Determine whether the lender ensured that the outside firm met
             HUD’s requirements (refer to HUD Handbook 4060.1, chapter 7, or
             HUD Handbook 4700.2, chapter 6).

         (b) Determine whether the agreement with the outside firm is in writing,
             states the roles and responsibilities of each party, and is available for
             review by MUD staff.

 h. Determine whether the sample sizes of FHA loans to review used
    throughout the year were determined in accordance with the criteria
    specified in chapter 7 of MUD Handbook 4060.1. This includes a random
    sample of insured loans being serviced by the lender or its agent.

     Determine whether the lender is in compliance with the timeliness and
     frequency requirements in section 7-6 of Handbook 4060.1.

j.   Determine whether any branch offices received an onsite review as required
     by chapter 7 of HUD Handbook 4060.1 or chapter 6 of HUD Handbook
     4700.2.

k. Determine whether the quality control plan includes coverage for any
   sponsored third-party originators and authorized agents of the lender.

1.   Determine whether the sponsor’s quality control program provides for the
     sponsor to review the loans originated and sold by each of its sponsored
     TPOs. If it does,


                                7-11
                                                                            12/2012
                                                    2000.04 REV-2 Change 12


    (1) Determine whether the sponsor determined an appropriate percentage of
        loans to be reviewed (refer to paragraph 7-6(C) of Handbook 4060.1).

    (2) Determine whether the sponsor retained the documents and
        methodologies used in making that determination and the results of the
        review.

    (3) Review the documentation for compliance with HUD requirements and
        determine whether the findings were reported and followed up in
        accordance with the lender’s policies and procedures.

m. In addition to the loans selected by the lender for routine quality control
   reviews, select a sample of early payment defaulted loans and determine
   whether the lender performed a review of such loans within 45 days from
   the end of the month in which the loan was reported as 60 days past due.
   Determine whether the early payment default review report and follow-up,
   including review findings and any actions taken along with procedural
   information as specified in chapter 7 of HUD Handbook 4060.1. are
   retained for a period of 2 years.

n. Review the supporting documentation of the most recent review to
   determine whether all of the required general and specific elements included
   in chapter 7 of HUD Handbook 4060.1 or chapter 6 of HUD Handbook
   4700.2 were included in the quality control review. The quality control plan
   must provide for the written reverification of the borrower’s employment,
   deposits. gift letter, or other sources of funds.

o. Obtain a written copy of the latest quality control review report and
   determine whether senior management officials also received a copy that
   included any deficiencies identified during the review.

p. Determine whether management is monitoring its default and claims rate in
   accordance with FHA’s Credit Watch Program. Copies of Neighborhood
   Watch reports may be obtained to determine whether the client is using such
   reports to meet the monitoring requirement.

q. Determine whether the lender notified the Office of Lender Activities and
   Program Compliance of any violations, false statements, or program abuses
   that were documented in the quality control review report within 60 days of
   the initial discovery.

r. Determine whether senior management officials promptly initiated
   corrective action for all deficiencies noted in the quality control review
   report.


                             7-12
                                                                      12/2012
                                                              2000.04 REV-2 Change 12


       s. Determine whether the files evidenced the actions taken by senior
          management to correct the deficiencies.

       t.   Determine whether the files contain evidence that the appropriate employees
            were notified of the deficiencies and provided instructions to correct the
            deficiencies and prevent recurrence.

B. Sponsor Responsibility for Third-Party Originators.

   1. Compliance Requirement. HUD does not monitor sponsored TPOs for the
      purpose of the origination of loans submitted for FHA insurance. FHA
      approved lenders are responsible for performing quality control reviews of their
      sponsored TPOs. Such reviews include but are not limited to performing a
      review of loans originated and sold to the lender by each of its sponsored TPOs
      (Mortgagee Letter 20 11-02). The lender must determine the appropriate sample
      amount of each sponsored TPO’s loans to review based on volume, past
      experience, and other factors specified in chapter 7 of HUD Handbook 4060.1.

   2. Suggested Audit Procedures.

      a. Determine whether the sponsoring lender has issued an annual written
         communication to each TPO under its sponsorship indicating its intent to
         assume the responsibility of ensuring the TPO’s compliance.

      b. Test the documentation supporting the reviews and the reports of the TPOs
         and determine the accuracy and reliability of the reviews and reports.

C. Branch Office Operations.

   1. Compliance Requirement. A lender may maintain one or more branch offices
      for the origination of loans and submission of applications for mortgage
      insurance. A lender may originate or service FHA-insured loans from branches
      that meet FHA requirements (chapter 2 of HUD Handbook 4060.1 or HUD
      Handbook 4700.2 and Mortgagee Letter 2011-34). Each branch office where a
      lender’s FHA origination personnel are assigned must be registered with FHA.
      and its facilities must meet State originating requirements. It must also meet
      FHA’s staffing and manager requirements in chapter 2 of HUD Handbook
      4060.1 or HUD Handbook 4700.2.

      The direct lending branch office is a Title II branch that will be used for the sole
      purpose of direct lending.        Its facilities must meet State originating
      requirements. It must also meet EHA’s staffing and operating requirements in
      HUD Handbook 4060.1.



                                     7-13
                                                                                 12/2012
                                                            2000.04 REV-2 Change 12


   2. Suggested Audit Procedures.

       a. Determine whether all branches that manage a lender’s FHA origination
          personnel are registered with HUD by reviewing the appropriate form or
          screen printout from FHA Connection.

       b. Through inquiry or physical observation, determine whether the branches
          are true branches and are not subsidiaries, independent contractors, agents of
          the lender, or separate entities. A lender with a separate tax identification
          number is required to have approval in its own right. A branch must have at
          least one employee including a branch manager. The branch manager may
          manage more than one branch except in the case of a direct lending branch,
          which must have its own manager. Branch office expenses must be paid by
          the lender.

      c. Review the lender’s payroll records for indications of any branch office
         personnel, except the receptionist, who are not employed exclusively by the
         lender at any given time. Inquire of personnel to determine whether branch
         employees conduct only the business affairs of the lender during nonnal
         business hours.

      d. Determine whether the branch office facilities meet State mortgage lending
         licensing requirements.

      e. Review company records for evidence that:

          (1) The present branch office managers are corporate officers or employees
              authorized to bind the corporation in matters involving loan origination
              and servicing and whether the branch office manager of each direct
              lending branch office manages only that one branch.

          (2) Branch compensation and contractual relationships comply with the
              requirements set forth in chapter 2, paragraph 2-14 of HUD handbook
              4060.1.

D. Loan Origination.

   1. Compliance Requirement. HUD requires lenders to originate loans in
      accordance with HUD requirements. They must obtain and verify information
      with at least the same care that would be exercised in originating a loan in
      which the mortgage would be entirely dependent on the property as security to
      protect their investment.




                                    7-14
                                                                              12/2012
                                                          2000.04 REV-2 Change 12


   Information on the lendefs copy of form HUD-92900. “HUD/FKA Application
   for Commitment for Insurance under the National Housing Act. must be
   supported by documents in the lender’s files (HUD handbook 4155.1).

   Lenders may not require, as a condition of providing an insured loan, the
   principal amount of the loan to exceed a minimum amount established by the
   lender (24 CFR 203.18d).

   Regulations at 24 CFR 202.12 prohibit lenders from originating insured
   mortgages if it is the customary practice of the lender to engage in ‘tiered
   pricing” of its loans (for discount points. origination fee. and other such fees) of
   more than 2 percent in an area (metropolitan statistical area or county in rural
   areas). The regulation further requires HUD to ensure that any variations in
   mortgage charge rates be based only on the actual variations in costs to the
   lender to make the loan. The 2 percent limitation on variation in ‘mortgage
   charge rates” must he applied to all Section 203 mortgages by loan type.

   For Title I loans. HUD expects that the lender will exercise prudence and
   diligence in determining whether the borrower is solvent and an acceptable
   credit risk with a reasonable ability to make payments on the loan obligation.
   All documentation supporting this determination of credit worthiness must be
   retained in the loan file (24 CFR 201.22).

2. Suggested Audit Procedures.

   a. Obtain an understanding of the lender’s procedures for processing loan
      applications. Determine whether the lender’s procedures provide for the
      applicant’s credit report, employment verification, and verification of
      deposits to be sent directly to the lender and not passed through any
      interested third party (e.g., real estate agent).

   b. Obtain a sample of files for Title II loans originated during the audit period
      to perform the following tests. These files should include loans originated
      at the lender’s branch offices and by its sponsored TPOs as well as its
      central office.

      (1) Review loan file documentation for evidence that the loan applicant had
          an opportunity for a face-to-face interview. If the loan applicant opted
          not to have a face-to-face interview, determine whether the lender asked
          sufficient questions to elicit a complete picture of the borrowers
          (i) financial situation. (ii) source of funds for the transaction, and
          (iii) intended use of the property. Verification of all of this information,
          as well as the identity of the loan applicant, must be documented in the



                                  7-15
                                                                             12/2012
                                                     2000.04 REV-2 Change 12


       loan file, in addition, determine whether a home equity conversion
       mortgage (HECM) loan applicant completed the required counseling.

   (2) Review all files in the sample to determine whether any forms have been
       signed by the lender but not completed by the applicant.

   (3) Determine whether all employment and income data are supported by a
       verification of employment or other sources. especially for self-
       employed applicants and applicants with nonemployment income.
       Review loan file documentation for evidence that the lender reconciled
       any conflicting information before submitting the application package to
       the appropriate HUD Homeownership Center for endorsement or
       insuring the loan under the lender insurance procedure.

   (4) Determine whether the applicant’s cash assets, source of funds, and
       liabilities are supported by documentation such as verifications of
       deposit, gift letters, credit reports. etc.

c. Obtain a sample of files for Title 1 loans originated during the audit period
   to be examined for the documentation required by the regulations. The
   sample should include loans originated at the lender’s branch offices as well
   as the home office.

   (1) Determine whether the lender obtained a separate dated credit
       application on the HUD-approved form from the borrower, any co
       maker, or cosigner and verified the validity of the borrower’s Social
       Security number in accordance with Title I Letter TI-414.

   (2) Determine whether all income and employment data are supported by
       written verification or other documentation, especially for self-employed
       applicants and those with nonemployment income.

   (3) Determine whether the lender obtained a complete and current consumer
       credit report on the borrower, any co-maker, or cosigner and checked on
       any credit inquiries reported within the previous 90 days.

   (4) Determine whether the lender obtained written verification of the
       borrower’s payment status on any senior mortgages or deeds of trust on
       the property to be improved.

   (5) For each person on the credit application, determine whether the lender
       checked HUD’s Credit Alert System to verify whether the borrower is in
       default or a claim has been paid on behalf of the borrower on any
       federally insured or guaranteed loan and whether the lender recorded the


                             7-16
                                                                       12/2012
                                                             2000.04 REV-2 Change 12


             borrower’s “credit alert response code” on the application for each
             person listed.

          (6) When the principal balance of the loan exceeds $5,000 and the initial
              payment exceeds 5 percent of the loan amount, determine whether the
              lender obtained written verification of the source of these funds through
              verifications of deposit, bank statements, gift letters, or other methods or
              evidence.

          (7) Review the loan file documentation for evidence that the lender
              conducted a face-to-face or telephone interview with the borrower
              before making a final determination of the borrower’s credit worthiness.

          (8) For dealer loans with a credit application date of December 12, 2001, or
              later, review the file documentation to determine whether a telephone
              interview occurred before loan disbursement was made. Lenders are
              required to conduct a telephone interview before disbursing the loan in
              addition to the credit underwriting telephone interview.

      d. Obtain a sample of files for rejected loans during the audit period and
         perform the following review:

          (1) Determine whether individual reviews were conducted for all sampled
              rejected applications that were denied due to a statistical category or
              score (e.g., credit score, debt-to-income ratio). Determine whether the
              score accurately reflected the financial status (e.g., loan and rent
              payments, current housing payments) of the applicant. A rejection
              should not be influenced by statistical categories or geographic location.

          (2) Determine whether the rejections were made based on established
              criteria and the reasons for the rejections were provided to the applicant.
              Determine whether procedures for accepting and processing the loans
              were followed.

E. Loan Servicing.

   1. Compliance Requirement. Lenders that service FHA-insured loans are
      permitted to collect certain fees from the borrowers in accordance with HUD
      rules (HUD Handbook 4330.1, chapter 4). Sponsored IPOs are not allowed to
      service loans.

      Lenders that service insured HECMs with adjustable rate mortgages are
      responsible for adjusting those rates in accordance with the annual and lifetime
      caps as established by HUD Handbook 4235.1.


                                     7-17
                                                                                 12/2012
                                                        2000.04 REV-2 Change 12


   Loan servicing procedures are to be followed consistently and should not vary.
   The lender must have an organized means of periodically identifying the
   payment status of delinquent loans to enable personnel to initiate and follow up
   on collection activities and must document its records to reflect its collection
   activities regarding delinquent loans. The lender must accept partial payments
   under an executed modification agreement or an acceptable repayment plan
   (refer to 24 CFR 201.41 for details). A modification agreement may be used to
   increase or reduce monthly payments but not to increase the term or the interest
   rate to ensure that the delinquent or defaulted loan is brought current before or
   by the end of the loan term. A modification agreement may also be used to
   effect a reduction in the interest rate and monthly payment for current loans (24
   CFR 203.500).

2. Suggested Audit Procedures.

   a. Obtain an understanding of the lender’s procedures for servicing loans.

   b. Select a sample of delinquent and defaulted loans, including loans in
      foreclosure, for testing the lender’s loan servicing procedures.

   c. Review the loan file documentation for evidence that the lender documents
      its records to reflect its servicing on delinquent and defaulted mortgages.

      (1) Determine whether the lender maintains individual servicing records
          documenting collection (loan servicing) activities.

      (2) Review the servicing records to determine whether they contain
          information on collection contacts attempted and completed.

  d. Review selected loan file documents for evidence that the lender
     communicates with the borrower or makes a reasonable effort to do so to
     determine the cause of default.

      (1) Review the individual loan servicing records for recorded collection
          contacts of more than one type (i.e., telephone, letter, face-to-face
          interview. etc.) if one type of contact effort is unsuccessful.

      (2) Review the individual loan servicing records for borrower explanations
          of defaults and documented attempts by loan servicing personnel to
          contact the borrowers.

     (3) Based on the review of the individual loan servicing records. when the
         cause of delinquency appears to be temporary (i.e.. illness.



                                7-18
                                                                          12/2012
                                                      2000.04 REV-2 Change 12


        unemployment), test whether the lender offers reasonable repayment
        plans.

 e. Review selected receipts for evidence that the lender accepts partial or late
    payments offered by borrowers.

     (1) Review the lender’s procedures for the handling of partial payments.
         Obtain a representation letter from the lender concerning such
         procedures.

     (2) Review the servicing records for the recording of partial payments
         accepted, held in a pending file, or rejected. (Note: The decision to
         reject a late or partial payment must be a decision based on the
         individual circumstances.)

    (3) Review the payment records of selected borrowers to determine whether

        (a) The amount of the late charge, if any, was computed correctly.

        (b) The late charge was assessed after 15 days of delinquency or the   th
                                                                               17

            day of the month.

f   Determine whether the lender has implemented steps to comply with the
    provisions of HUD’s loss mitigation program. Servicing lenders should use
    the following six tools to mitigate losses to the insurance fund: special
    forbearance, mortgage modification, partial claim, FHA home modification,
    preforeclosure sale. and deed in lieu of foreclosure. HUD requires that all
    loss mitigation tools be considered, and the servicing lender is required to
    document its loss mitigation efforts. Review selected servicing and claim
    files for evidence that such relief measures were considered (refcr to
    Mortgagee Letters 2000-05, 2002-17, 2003-19. 2008-23, and 2009-23).

g. Determine whether the lender sends notices to advise the borrower about
   1-JUD’s foreclosure relief program once it has decided to foreclose. Review
   the loan files selected for evidence that such letters were sent before the
   initiation of foreclosure proceedings.

h. Compare charges assessed to borrowers for servicing activities to allowable
   amounts (refer to 24 CFR 203.552. 24 CFR 203.25. and chapter 4 of HUD
   Handbook 4330.1). For the loans selected:

    (1) Review charges to borrowers for checks returned due to insufficient
        funds.



                             7-19
                                                                       12/2012
                                                               2000.04 REV-2 Change 12


            (2) Review charges to borrowers for attorney’s fees and determine whether

                (a) The charges were for services performed b         someone other than
                    salaried members of the lender’s staff and

                (b) The charges were made only in those cases in which the lender
                    decided to foreclose and referred the loan to an attorney for initiation
                    of foreclosure proceedings.

       i.   Obtain an understanding of the lender’s procedures for paying insurance
            premiums to HUD. Determine whether the lender follows one of the two
            acceptable methods of making insurance premium payments (electronic
            payment through pay.gov or bank check) and that its practices comply with
            HUD regulations. Review a representative sample of insurance claims
            submitted to HUD. Recalculate the net claim amount on the Single Family
            Application for Insurance Benefits (form HUD-2701l) and compare the
            claim amount information to the accounting records. Test the amounts
            included in the claim for preservation and protection expenses to determine
            whether they are supported by documentation.

       j.   Select a sample of adjustable rate HECMs and determine whether the lender
            is exceeding the limitations of the 2 percent annual and 5 percent lifetime
            caps.

       k. Select a sample of HECMs and determine whether the disbursements have
          been made in accordance with the mortgage note.

F. Federal Financial and Activity Reports.

   1. Compliance Requirement. Lenders participating in HUD-assisted Title I and
      Title II programs are required to ensure that financial status, single-family
      default monitoring, and reports required under the Home Mortgage Disclosure
      Act (HMDA) contain reliable data and are presented in accordance with the
      terms of applicable agreements between the entity and HUD. The individual
      agreements, handbooks, and mortgagee letters contain the specific reporting
      requirements that the lender is to follow.        Refer to HMDA reporting
      requirements at:

      In addition to the specific reporting requirements referenced above. lenders
      originating Title I loans are required to submit annual HMDA reports by March
      I of each year pursuant to Title I Letter TI-479. All Title I-approved lenders are
      required to report any noncompliance by borrowers. contractors, or other parties
      related to a Title I-insured loan pursuant to Title I Letter TI-447.



                                      7-20
                                                                                  12/2012
                                                              2000.04 REV-2 Change 12


    2. Suggested Audit Procedures.

       a. Obtain a list from management of the HUD programs participated in during
          the reporting period, along with all related guidance and reference materials
          addressing reporting requirements for each program listed.

       b. Obtain an understanding of the lender’s procedures for preparing and
          reviewing the required reports.

       c. Select a sample of financial reports, other than those that are included in the
          audited financial statements, and determine whether the reports selected are
          prepared in accordance with HUD instructions.

       d. Select a sample of activity reports and determine whether the reports
          selected are prepared in accordance with HUD requirements and are filed in
          a timely manner.

       e. For the sample. trace significant data to supporting documentation; i.e.,
          worksheets, ledgers, etc. Report all material differences between selected
          reports and lender records.

      f.   Review adjustments made to the general ledger accounts having a material
           effect on the HUD program activity and evaluate the propriety of those
           adjustments.

C. Lender Annual Recertification, Adjusted Net Worth, Liquidity and LicensinL

   To help strengthen FHA’s oversight of approved lenders and better manage
   program risks, Section 203 of the Helping Families Save Their Homes Act of 2009
   (Public Law 111-22) provides limitations on those eligible to participate in FHA
  programs. This Act directs that lenders not be and not have any officer, partner,
  director, principal, manager, supervisor, loan processor, loan underwriter, or loan
  originator of the applicant lender who is currently (1) suspended; (2) debarred; (3)
  under a limited denial of participation; (4) under indictment for or has been
  convicted of an offense that reflects adversely upon the applicant’s integrity,
  competence, or fitness to meet the responsibilities of an approved lender;
  (5) subject to unresolved findings contained in HUD or other governmental audit,
  investigation, or review; (6) engaged in business practices that do not conform to
  generally accepted practices of prudent lenders or that demonstrate irresponsibility;
  (7) convicted of or who has pled guilty to a felony related to participation in the real
  estate or mortgage loan industry; or (8) in violation of any other requirement as
  established by the HUD Secretary. The timeframes associated with criminal
  activity and clarification of the term “unresolved findings” is further outlined in
  Mortgagee Letter 2010-38.


                                     7-21
                                                                                 12/2012
                                                                                     2000.04 REV-2 Change 12


               1. Compliance Requirements. All lenders must maintain both fidelity bond and
                  errors and omissions insurance of at least $300,000 each (24 CFR 7(b)(5)).
                  HUD does not require that it be the beneficiary of such coverage. A fidelity
                  bond that is generally acceptable to the secondary market agencies, such as
                  Ginnie Mae, Fannie Mae. or Freddie Mac. will meet FHA’s requirement. An
                  applicant must provide evidence of such coverage.

                   In compliance with Mortgagee Letter 2010-38, FHA-approved lenders must
                   complete the online annual certification (formerly known as the yearly
                   verification report) before electronically submitting the annual renewal fee and
                   audited financial statements. The annual recertification process must be
                   completed within 90 days of the lender’s fiscal year end. There are three steps
                   to FHA’s annual recertification process; namely, (1) the completion of the
                   online annual certification via FHA Connection, (2) electronic payment of the
                   annual renewal fee, and (3) electronic submission of acceptable audited
                   financial statements and other required documents that have been received as
                   acceptable by HUD. On April 20, 2010, HUD made changes to the net worth
                   requirements (24 CFR 202.5(n)). The following net worth requirements are
                   effective May 20, 2010, for all approved supervised and non-supervised lenders
                   and all approved investing lenders with FHA approval as of May 20, 2010.

                   •   Existing non-small-business-approved lenders. An applicant for FHA
                       approved lender that exceeds the size standards for its industry classification
                       as established by the Small Business Administration (SBA) at 13 CFR
                        121.201, section 52 (Finance and Insurance), subsector 522 (Credit
                       Intermediation and Related Activities), must have a net worth of not less
                       than $1 million, of which no less than 20 percent must be liquid assets
                       consisting of cash or its equivalent acceptable to the HUD Secretary.

                   •   Existing small-business-approved lenders. An approved lender that meets
                       the SBA size standards for its industry classification must have a net worth
                       of not less than $500,000, of which no less than 20 percent must be liquid
                       assets consisting of cash or its equivalent acceptable to the HUD Secretary.
                       The net worth requirements for small business lenders remain applicable as
                       long as the lender continues to meet the SBA size standard for small
                       business. If a small business lender no longer meets the SBA size standard
                       of a small business, as evidenced by the audited financial statements
                       provided to HUD 90 days afier the end of a fiscal year, the lender must meet

  Cash and cash equivalents constitute liquid assets. Cash includes cash on hand. checking accounts, savings
accounts, and certificates of deposit. Cash equivalents are readily marketable investments: e.g., securities readily
convertible into cash. To be considered a liquid asset, the cash or cash equivalent must not be restricted or
otherwise reserved for any purpose other than the payment of a current liability. FHA does not consider a line of
credit or loans or mortgages held for resale by the lender to be liquid assets.


                                                       7-22
                                                                                                           12/2012
                                                      2000.04 REV-2 Change 12


     the net worth requirements for a non-small-business lender by the last day of
     the fiscal year in which the audited financial statements were submitted.

 In addition, the following net worth requirements are effective on May 20,
 2013, for new applicants for FHA approval to participate in FHA single-family
 and multifamily programs, for all approved supervised and non-supervised
 lenders, and for all FHA-approved investing lenders:

 •   Single-family lenders. Irrespective of size, each applicant and each
     approved lender, for participation solely under the FHA single-family
     programs, shall have a net worth of not less than $1 million, plus an
     additional net worth of 1 percent of the total volume in excess of $25
     million of FHA single-family insured mortgages originated, underwritten.
     purchased, or serviced during the prior fiscal year, up to a maximum
     required net worth of $2.5 million. No less than 20 percent of the
     applicant’s or approved lender’s required net worth must be liquid assets
     consisting of cash or its equivalent acceptable to the J-IUD Secretary.

•     Multifamily lenders. Irrespective of size, each applicant for approval and
     each approved lender for participation solely under the FHA multifamily
     programs must have a minimum net worth of not less than $1 million. For
     those multifamily approved lenders that also engage in mortgage servicing,
     an additional net worth of 1 percent of the total volume in excess of $25
     million in FHA multifamily mortgages originated, purchased, or serviced
     during the prior fiscal year, up to a maximum required net worth of $2.5
     million, is required. For multifamily approved lenders that do not perform
     mortgage servicing, an additional net worth of one half of 1 percent of the
     total volume in excess of $25 million in FHA multifamily mortgages
     originated during the prior fiscal year, up to a maximum required net worth
     of $2.5 million, is required. No less than 20 percent of the applicant’s or
     approved lender’s required net worth must be liquid assets consisting of
     cash or its equivalent acceptable to the H1JD Secretary.

An FRA computation of adjusted net worth is required for all lenders even if
there were no loans originated or serviced during the audit period. The required
amount, which must be maintained throughout the year, varies by program
participant type and approval date. When the lender is a parent or a subsidiary
of a parent, the adjusted net worth computation must focus on the assets and
equities of the individual FHA-approved entity.

Included in this chapter are examples of adjusted net worth computation
schedules. which are shown in attachments A and B.



                              7-23
                                                                        12/2012
                                                                                    2000M4 REV-2 Change 12


                   The following are unacceptable assets and are not to be used in the computation
                   of adjusted net worth:

                   a. Any asset or portion thereof pledged to secure obligations of another entity
                      or any person. Supervised institutions that provide financial services to
                      incorporated communities are sometimes required by State law to pledge
                      their assets for the benefit of the community or to the government regulator.
                      These pledged assets are acceptable for supervised institutions only.

                   b. An asset due from an officer or stockholder of the lender or from a related
                      entity, except for:

                        (1) A construction loan receivable, secured by a first mortgage, from a
                            related entity.

                        (2) A mortgage loan receivable established in the normal course of business
                            in an arm’s length transaction and secured by a first mortgage on the
                            related property.

                       (3) A receivable from a related party when the affected parties have
                           executed a cross-default agreement
                                                    6 or corporate guarantee agreement
                                                                                7
                           with Gitmie Mae.

                       (4) A receivable from an officer or stockholders of a publicly traded
                           supervised institution that owns less than 5 percent of the shares
                           outstanding or issued.

                  c. An investment in a related entity in which any officer or stockholder of the
                     lender has a personal interest
                                              8 unrelated to that person’s position as an
                     officer or stockholder of the lender.

                  d. Any intangible asset, including but not limited to goodwill, covenants not to
                     compete, franchise fees, organization costs, value placed on insurance
                     renewals, and value placed on property management contract renewals aside
                     from mortgage servicing rights referenced below.



6
  A cross-default agreement is an agreement between related affiliated Ginnie Mae issuers, which provides for the
default of all affiliated issuers in the event of a default by any one of them.
  A corporate guarantee agreement is an agreement in which the issuer’s parent guarantees the performance of the
issuer.
  “Personal interest” as used here indicates a relationship between the lender and a person or entity in which that
specified person (e.g., spouse, parent, grandparent. child, brother, sister, aunt, uncle, or in-law) has a financial
interest in or is employed in a management position by the lender.


                                                       7-24
                                                                                                          12/20 12
                                                                                   2000.04 REV-2 Change 12


                  e. The value of any servicing contract not determined in accordance with
                     Financial Accounting Standards Board Accounting Standards Codification
                     860-50      Transfers and Servicing Servicing Assets and Liabilities or
                                                                    —




                     revisions thereto.

                  f.   Any asset unrelated to the lending business and not readily marketable and
                       for which appraised values are highly subjective. Examples include but are
                       not limited to antiques. artwork. and gemstones.

                  g. That portion of any marketable security (listed or unlisted) in excess of the
                     lower of cost or market, except for shares of Fannie Mae stock required to
                     be held under a servicing agreement, which should be carried at cost,
                     including unrealized gains on “available for sale” securities.

                  h. Any amount in excess of the lower of cost or market value of mortgages in
                     foreclosure, construction loans, or property acquired through foreclosure.

                  i.   Any asset, which is principally used
                                                         9 for the personal enjoyment or benefit
                       of an officer, director, or stockholder and not for normal business purposes.
                       This includes motor vehicles and personal residences.

                 j.    “Other assets” unless the financial statements are accompanied by a
                       schedule covered by the audit opinion or a schedule prepared by the issuer
                       or lender and signed by an officer of the issuer or lender.

                 k. That portion of contributed property, not otherwise excluded, in excess of
                    the value as of the date of contribution, determined by an independent
                    appraisal. If property is contributed but the related mortgage or debt is not
                    also transferred to the company, the value of the contributed property should
                    be reduced by that obligation.

                 Beginning in 2011, mortgage lenders were required to file their annual licensing
                 requirements with the National Mortgage Licensing System (NMLS). The
                 lender must also file a quarterly call report on loan information that also
                 includes selected financial data. The detail required depends on the size of the
                 lender. The link to the NMLS website can be found below:




“Principally used” means that any other use of the property must be solely incidental.


                                                     7-25
                                                                                                 12/2012
                                                                 2000.04 REV-2 Change 12


         2. Suggested Audit Procedures.

             a. As of the financial statement date and additional representative points of
                time during the audit period, test whether the lender meets the required
                levels for adjusted net worth, liquidity, fidelity bond coverage, and errors
                and omissions bond according to HUD Handbook 4060.1. If the lender does
                not meet the requirement, report the deficiency in the report on compliance
                and in a written audit finding. Determine whether there are internal control
                deficiencies related to the noncompliance that should be reported in the
                report on internal controls and in a written audit finding.

             b. Ensure that the lender has filed the annual certification, paid the annual
                renewal fee, and submitted audited financial statements for the prior year.

             c. Determine the lender’s compliance in reporting any quarterly net operating
                loss, calculated based on GAAP, in excess of 20 percent of net worth (refer
                to HUD Handbook 4060.1).

            d. Determine the lendefs compliance with the liquidity requirements as
               outlined above (refer to HUD Handbook 4060.1).

             e. Review the lender’s filings with NMLS to ensure that the required filings
                were made. Review the yearend filing to ensure that the financial data filed
                agree with the audited financial statement data.

7-6   Compliance Requirements and Suggested Audit Procedures Applicable to Title I
      Lenders.

      A. Loan Disbursement.

         1. Compliance Requirement. The lender has certain responsibilities to be carried
            out in connection with the disbursement of loan proceeds (24 CFR 201.26 and
            201.40). These responsibilities vary widely, depending upon whether the loan is
            a property improvement or manufactured home loan and whether the
            disbursement is made directly to the borrower or to a dealer. The disbursement
            of loan proceeds must be adequately documented in the lender’s file. When
            dealer loans are involved, the lender must also maintain separate dealer files,
            which reflect compliance with HUD’s requirements concerning the dealer’s
            approval and supervision (24 CFR 201 .2 7).

        2. Suggested Audit Procedures.

            a. Review the lender’s procedures for determining borrower eligibility and
               evaluating whether the loan proceeds are being used for eligible purposes


                                         7-26
                                                                                   12/2912
                                                         2000.04 REV-2 Change 12


       (24 CFR 201.20 or 201.21 as appropriate). Also. review the lender’s
       procedures for documenting that the property improvements have been
       completed or the manufactured home has been satisfactorily delivered and
       installed (24 CFR 201 .26(a) or (b) as appropriate).

    b. Select a representative sample of property improvement loan files and
       determine whether each file contains the following:

       (1) The note, security instrument if any, credit application, completion
           certificate, and notice of HUD’s role in the loan transaction required by
           24 CFR 201.26(b)(7) for manufactured home loans and 24 CFR
           201 .26(a)(8) for property improvement loans.

       (2) A contract or contract proposal between the borrower and a dealer or
           contractor or a detailed written description of the work with a materials
           list and estimated costs if the borrower is carrying out the work without
           a dealer or contractor.

      (3) Evidence of an onsite inspection to determine that the improvements
          were completed if the loan is for $7,500 or more.

c. Select a representative sample of manufactured home loan files. Review the
   files to determine whether each file contains the following documents:

      (1) The note, security instrument, credit application, purchase contract.
          manufacturer’s invoice, itemized statements of other costs, and fees or
          charges.

      (2) Evidence of the borrower’s initial payment, a placement certificate
          signed by the borrower and dealer, and the notice of HUD’s role in the
          loan transaction required by 24 CFR 201.26(b)(7).

d. For each file reviewed under A.2.c above, determine whether the lender has
   documented a site-of-placement inspection within 60 days after
   disbursement of the loan proceeds.

c     When the lender approves dealer loans, determine whether

      (1) The lender supervised and monitored each dealer and visited the dealer
          periodically.

      (2) Each dealer’s approval is documented on a HUD-approved form, signed
          and dated by both parties.



                                7-27
                                                                          12/2012
                                                                  2000,04 REV-2 Change 12


                 (3) Each dealer’s file contained the dealer’s current financial statement,
                     including a determination that the dealer met the minimum adjusted net
                     worth requirements of 24 CFR 201 .27(a)( 1) and credit reports on the
                     dealership and its owners. principals, and officers.

                 (4) The file contained documentation of the lender’s experience with the
                     dealer’s Title I loans, including information on borrower defaults and
                     borrowers’ complaints and evidence of the resolution of those
                     complaints.

      B. Eligible Fees and Charges.

          1. Compliance Requirement. Title I Letters TI-440, dated May 2, 1996, and
             TI-440-S, dated July 3, 1996, list all fees and charges allowed in the program.

         2. Suggested Audit Procedures. Obtain the lender’s general ledger, cash journal.
            canceled checks, and supporting invoices for at least 2 months of the audit
            period and based on review of a representative sample, determine whether

             a. The fees and charges were within the allowable amounts contained in Title I
                Letters TI-440 and TI-440-S and report amounts paid in excess of the
                allowable amounts.

             b. Disbursements are supported by invoices and were for eligible amounts in
                return for goods or services actually provided in connection with a Title 1
                loan. Review and report on any differences.

             c. Referral fees are being paid. During the review of loan origination and loan
                settlement documents, the auditor should be alert for any fees or other types
                of payments that show evidence of being referral fees. If the auditor notes
                any such referral fees, they must be reported as a finding.

            d. Points and closing costs are accurate.

7-7   Compliance Requirements and Suggested Audit Procedures Applicable to Title II
      Lenders.

      A. Loan Settlement.

          1. Compliance Requirement.         The loan origination fee should normally
             compensate the lender for the required loan settlement services. As a result of
             regulatory changes to 24 CFR 203.27, FHA no longer limits the origination fee
             to 1 percent of the mortgage amount for its standard mortgage insurance
             programs. HUD has specified the types and amount of additional charges and


                                          7-28
                                                                                    12/20 12
                                                        2000.04 REV-2 Change 12


    fees that the lender may collect from the borrower. Additionally, the lender is
    responsible for promptly submitting upfront mortgage insurance premiums to
    HUD following loan settlement, disbursing the funds, arid completing the
    transaction in accordance with the closing documents without undue delay (24
    CFR 203.284).

2. Suggested Audit Procedures.

   a. Obtain an understanding of the lender’s procedures for settling and
      completing loan transactions.

   b. Select a representative sample of HUD loans for testing from those settled
      during the audit period.

      (1) Examine the signed settlement statement (form HUD-l). Prove the
          mathematical accuracy of the HUD-1. Compare amounts listed on the
          HUD-1 to other authentic loan documents, including the good faith
          estimate.

      (2) Review the fees and charges collected from the borrowers as shown on
          loan settlement statements.

          (a) Determine whether they are equal to the lender’s actual out-of-
              pocket costs for the related service or the maximum charge allowed
              by HUD, whichever is lower (refer to 24 CFR 203.24, 24 CFR
              203.26, chapter 6 of HUD Handbook 4155.2. and chapter 4 of HUD
              Handbook 4330.1).

          (b) Determine whether all such fees were disclosed in the good faith
              estimate.

      (3) Review the points and closing costs to determine whether those costs
          were the costs that the borrower agreed to.

      (4) Review computations and supporting data for amounts collected to
          establish escrow accounts for taxes and hazard insurance. Determine
          whether the amounts charged are in accordance with the supporting data.
          Report any differences.

      (5) Review computations and supporting data for interest collected from the
          borrower at loan closing. Reconcile and report on any differences.

     (6) Compare the amount of the insured mortgage to the acquisition costs to
         determine whether the borrower made the required minimum


                                7-29
                                                                          12/2012
                                                             2000.04 REV-2 Change 12


              investment. The form HUD-92900 contains the acquisition cost of the
              property. The HUD- I contains the amount of the insured mortgage.

          (7) Examine the canceled check or other supporting documentation for
              evidence that the lender submitted the mortgage insurance premium to
              HUD in accordance with HUD policy at the time of closing. Determine
              whether payment reached HUD’s depository within 10 calendar days of
              closing (Mortgagee Letter 2005-28, dated June 20, 2005).

          (8) Compare the purchase contract and the MUD-i for agreement as to sales
              price, earnest money deposit, and any seller concessions.

B. Escrow Accounts.

   1. Compliance Reiuirement. HUD requires that lenders establish escrow
      accounts and borrowers make monthly payments thereto to ensure that funds
      will be available to pay taxes and insurance premiums. Each month, the lender
      must collect from the borrower an amount that the lender estimates will be
      sufficient to enable it to accumulate funds to pay all escrow obligations before
      delinquency; i.e., (a) mortgage insurance premiums; (b) taxes, special
      assessments, and ground rents if any; (c) hazard insurance premiums if any; and
      (d) flood insurance premiums when required. The lender should analyze the
      escrow account at least annually to determine whether projected escrow
      balances will be sufficient to fund escrow disbursements. Any projected escrow
      shortage should be collected by either (a) lump sum payment or (b) allocating
      the shortage over a 12-month period. The mortgage instrument provides the
      authority for the lender to accumulate sufficient escrow funds with which to pay
      the borrower’s tax and insurance bills 30 days before the bills become
      delinquent (MUD Handbook 4330.1, chapter 2).

      Lenders may not use borrower escrow funds for any purpose other than that for
      which they were received, and lenders may not report escrows as their own
      assets. If a lender reports its escrow funds on its balance sheet, such funds must
      be fully offset by a corresponding liability and must be segregated on the
      balance sheet.

  2. Suggested Audit Procedures.

      a. Obtain an understanding of the policies and procedures for reconciling
         escrow accounts.

      b. Determine whether escrows are reported on the balance sheet. If so,
         determine whether the proper liability account is established and reported
         and the accounts are segregated as required.


                                    7-30
                                                                               12/2012
                                                      2000.04 REV-2 Change 12


c. Obtain trial balances of individual escrow accounts and reconcile or review
   the reconciliation of the total with the lender’s control account and the
   related bank account. Select a sample and test to determine whether the
   lender used escrow funds to pay late charges, assumption fees, or any other
   expense that are not allowable expenses as specified above.

d. For selected mortgages, obtain the most recent escrow analysis and note
   whether it was prepared not more than 1 year previously and whether
   monthly deposits appear adequate to provide for payments of taxes,
   insurance, etc., by review of actual payments or other evidence of amounts
   due (e.g., tax assessment notices or prospective rate adjustment notices from
   insurance companies). Also, determine whether the most recent real estate
   tax bills for each account were paid. If not paid within the discount period,
   inquire as to reasons for the delay and test to determine whether the
   borrower retained the benefit of the discount and any late charges assessed
   were borne by the lender at its expense. Determine whether the borrower
   was furnished a statement of interest paid during the preceding calendar
   year within 60 days after the end of that calendar year.

e. On accounts selected for review, inspect supporting documents for escrow
   disbursements such as receipts, invoices, tax bills, and canceled checks.
   Determine whether the funds were used only for the intended purpose and
   the proper amount was disbursed.

f.   Determine whether escrow funds have been deposited into accounts fully
     insured by FDIC or NCUA and whether the lender covered any overdrafts
     on selected accounts by advancing its own funds to custodial accounts so
     that FDIC or NCUA insurance protection was not impaired. HUD
     regulations neither require nor forbid escrow accounts to bear interest.
     However, in those cases in which accounts are interest bearing, determine
     whether interest earned, net of any bank account fees, is passed on to the
     borrower.

g. Determine whether the lender advises the borrower of the amount of any
   surplus escrow funds in accordance with HUD requirements.

h. Review the policies and procedures that the lender has established to ensure
   that bills payable from the escrow fund or the information needed to pay
   such bills is obtained in advance of the due date.

i.   For any bills paid late by the lender, determine whether any late charges or
     penalties assessed are paid out of the lender’s funds and not the borrower’s
     funds.



                               7-31
                                                                        12/2012
                                                            2000.04 REV-2 Change 12


      j.   Determine whether the lender requires the borrower to purchase hazard
           insurance coverage from the lender or from a specific company.

      k. Review selected loan payoffs for evidence that the lender returns to the
         borrower the amounts held in escrow for taxes and hazard insurance within
         30 days of receipt by the lender of payoff funds.

      1.   Determine whether the lender has notified HUD within 15 calendar days of
           the sale or transfer of an FHA-insured loan to another FHA-approved
           lender, pursuant to Mortgagee Letter 2011-33.

C. Kickbacks.

   1. Compliance Requirement. HUD regulations and the Real Estate Settlement
      Procedures Act prohibit lenders from paying any fee, kickback, compensation,
      or thing of value, including a fee representing all or part of the lender’s
      origination fee, to any person or entity other than for services actually
      performed or to any person or entity for referral of the loan or as a finder’s fee
      (HUD Handbook 4155.2, chapter 6).

   2. Suested Audit Procedures.

      a. Obtain the general ledger; the cash journal; and a representative sample of
         canceled checks, check vouchers, and supporting invoices for at least 2
         months of the audit period and determine whether

           (1) Disbursements are supported by an invoice and were not for an
               unreasonable amount in return for goods or services actually performed.
               Reconcile and report on any differences.

           (2) Any funds were advanced to real estate agents, real estate brokers,
               mortgage brokers, or packagers as an advance of anticipated
               commissions on sales to be financed with an FHA-insured mortgage.

      b. Determine whether any no-interest loans or loans at less than prevailing
         rates were made to a real estate broker, real estate agent, mortgage broker,
         packager. builder, or any other party from whom, based on available
         evidence, the lender accepts proposals involving FHA-insured mortgages.

      c. From a sample of payments. determine whether any payment was made for
         a gratuity or for a gift valued above items that are customarily distributed in
         the normal course of advertising or public relations or as a general
         promotion device to any person or entity involved in FHA-insured mortgage
         transactions of the lender.


                                     7-32
                                                                               12/2012
                                                                   2000.04 REV-2 Change 12


            d. From a sample of payments, determine whether any fees or compensation
               was paid that is prohibited by the Real Estate Settlement Procedures Act.

            e. During the review of loan origination and loan settlement documents, the
               auditor should be alert for any fees or other types of payments that may
               represent kickbacks. If the auditor notes any kickbacks or indications of
               kickbacks, these should be reported in an audit finding.

7-8   Multifamily Insured Loans Reporting Requirement         -   Loan Fees for Multifamily
      Mortgages

         A. Compliance Requirement. Lenders participating in FHA multifamily
            programs are now required by Mortgagee Letter 2011-05 to report total loan
            fees earned that exceed 5 percent of the insured loan amount on each FHA
            insured loan of more than $2 million endorsed during the lender’s fiscal year
            period covered in its audited financial statements.

            Loan fees include

            1. Origination and placement fees as permitted by the Multifamily Accelerated
               Processing Guide,

            2. PIus trade profit, trade premium, or marketing gain earned on the sale of the
               Ginnie Mae security at a value above par, even if the security sale is delayed
               until after endorsement,

            3. Minus loan fees applied by the lender to its legal expenses incurred in
               connection with loan closing.

            Loan fees should be reported on a separate schedule included as supplemental
            information with the lender’s annual audited financial statements submitted to
            HUD (see example format below). For each loan in which the lender earned
            total loan fees of more than 5 percent, the schedule must list (1) the FHA loan
            number, (2) the loan amount at initial or final endorsement, and (3) the amount
            of total loan fees earned above 5 percent, both in dollar amount and as a
            percentage of the FHA-insured loan amount.




                                          7-33
                                                                                    12/2012
                                                               2000.04 REV-2 Change 12


                              Schedule of loan fees for
                                multifamily lenders

                                                 Loan fees earned that exceed 5%
                                                      of insured loan amount
                     Dollar amount of
FHA loan number                                 Percentage of
                      endorsed loan                                  Amount in dollars
                                            insured loan amount




      Lenders are not required to separately report on total loan fees that do not exceed 5
      percent.

      If, on a single loan endorsement, the trade profit, trade premium, or marketing gain
      earned on the sale of the Ginnie Mae security is received by the lender during a
      fiscal year reporting period that is after the period in which the origination and
      placement fees were received and if the total of the fees earned requires reporting
      under Mortgagee Letter 20 11-05, the lender must disclose the total loan fees it
      earned that are above 5 percent of the loan amount on the schedule filed during the
      next fiscal year.

      Mortgagee Letter 2011-05 also states that that lenders’ annual audited financial
      statements are not subject to Freedom of Information Act requests.

   B. Suggested Audit Procedures.

      1. Review insured loans of more than $2 million that closed during the reporting
         period and determine whether the total loan fees earned exceeded 5 percent of
         the loan amount.

      2. Review the report and determine whether all of the fees earned that exceeded 5
         percent of the loan amount were listed in the report.

      3. Determine whether the report included all of the required information and
         whether that information was accurate based on information in the loan file.

      4. Determine whether (1) any trade profit, trade premium, or marketing gain fees
         earned on the sale of the Ginnie Mae security were received by the lender
         during a fiscal year reporting period that was after the period in which the
         origination and placement fees were received, (2) the total of the fees earned
         requires reporting under Mortgagee Letter 2011-05, and (3) the lender disclosed



                                        7-34
                                                                                  12/2012
                                                                     2000.04 REV-2 Change 12


              the total loan fees it earned that were above 5 percent on the schedule filed
              during the next fiscal year.

7-9   Audit Finding Reporting.

      All material instances of noncompliance with any HUD requirement or regulation.
      significant deficiencies and material weaknesses in internal controls, instances of fraud
      or illegal acts, or contract violations that were disclosed during the audit process must
      be reported as findings in the audit report. All nonmaterial instances of noncompliance,
      deficiencies in internal control, instances of fraud or illegal acts, or contract violations
      relating to HUD programs disclosed during the audit process may be reported to
      management in a separate communication outside of the audit report. Such reporting
      must be in writing in a management letter or other type of wTitten auditor
      communication and must be mentioned in the independent auditor’s report, including
      the date of the management letter or other written communication. The management
      letter or other communication should accompany the electronic submission.
      Noncompliance, deficiencies, or instances of violations, which were corrected during
      the audit process or after the fiscal year under audit or disclosed as a part of the audit
      process before the end of the fiscal year under audit and before the issuance of the audit
      report, must be included in the report as resolved findings or in a management letter,
      depending on their materiality, regardless of whether they were found to be material or
      immaterial FHA compliance issues.

      A. Content of Finding.

         Findings are to be presented in accordance with the standards and requirements of
         the Government Auditing Standards, “Yellow Book.” A finding should be
         supported by sufficient, competent, and relevant evidence; be presented in a manner
         to promote adequate understanding of the matters reported; and provide convincing
         but fair presentations in proper perspective. Each finding is to be accompanied by a
         corrective action plan prepared by the lender.

         Please refer to chapter 2 for the information that is to be included in a finding.

      B. Corrective Action in Process.

         Many times when lenders are presented with draft findings, they will start to take
         action to correct the deficient condition. When this action is underway and the
         auditor has completed his or her fieldwork, the lender may include the action
         completed and the action remaining to be taken in the lender’s comments and in the
         corrective action plan. Regardless of whether the lender is in the process of
         correcting the finding, the auditor is to include the finding in the report with all
         required elements.



                                             7-35
                                                                                         12/2012
                                                                      2000.04 REV-2 Change 12


       C. Corrective Action Completed.

           Many times when the lender is presented with draft findings, it will start to take
           action and complete that action, correcting the deficient condition before the
           completion of the fieldwork. When this action occurs, the finding is still to be
           included in the audit report with all required elements. The action taken or
           completed should be included in the lender’s comment section and should be
           validated by the auditor. The recommendation section should follow the Iendefs
           comment section, and the auditor should indicate whether any of the information is
           inconsistent with or in conflict with the report’s findings. In addition, the auditor
           could include any additional recommendations he or she believes are necessary
           based on the testing of that action.

7-10   Reference Material. The following is the reference material that was in effect at the
       time this handbook chapter was issued. It is the auditors’ responsibility to use the
       appropriate reference material that was in effect during the period covered by their
       audit.

       Throughout this chapter, except in this paragraph, reference is made to handbooks
       using only the base handbook number without the revision number (i.e., REV-I, REV-
       6, etc.). In this section only, we are citing the revision numbers that were current on the
       date of publication since it was those documents we used in establishing the
       requirements of this audit guide. Also, the auditor should ensure that the updated
       references or the reference materials that were in effect during the period of the audit
       are used for performing the audits. Auditors should make any needed modifications or
       updates to the material used to perform their audits. If reference to the handbook is
       needed in the audit report findings or in any other part of their audit report, auditors
       should ensure that the entire updated reference (including the revision number) is used.

       The information collection requirements contained in this handbook have been
       approved by the Office of Management and Budget (0MB) under the Paperwork
       Reduction Act of 1995 (44 U.S.C. (United States Code) 3501-3520) and assigned the
       following 0MB approval numbers: 2502-0328, 2502-055 1, and 2502-0005.

           Document                                              Title

24 CFR Part 5                          General HUD Program Requirements: Waivers

24 CFR Part 201                        Title I Property Improvement and Manufactured
                                       Home Loans

24 CFR Part 202                        Approval of Lending Institutions and Mortgagees




                                             7-36
                                                                                        12/2012
                                                                               2000.04 REV-2 Change 12


               Document                                                    Title

 Mortgagee letters                            Various

 Forms                                        Various

 HUD Handbook 4060.1. REV-2                   FHA Title II Mortgagee Approval Handbook

 HUD Handbook 4145.1                          Architectural Processing and Inspections for Home
                                              Mortgage Insurance

 HUD Handbook 4150.1. REV-i                   Valuation Analysis for Home Mortgage Insurance

 HUD Handbook 4150.2                          Valuation Analysis for Single Family One-to-Four-
                                              Unit Dwellings
 HUD Handbook 4155.1                          Mortgage Credit Analysis for Mortgage Insurance on
                                              One-to-Four Family Properties
HUD Handbook 4155.2                           Lender’s Guide to the Single Family Mortgage
                                              Insurance Process
HUD Handbook 4235.1, REV-i                    Home Equity Conversion Mortgages

HUD Handbook 4240.2, REV                      The Graduated Payment Mortgage Program

HUD Handbook 4240.4, REV-2                   203K Handbook Rehabilitation Flome Mortgage
                                             Insurance

HUD Handbook 4330.1, REV-5                    Administration of Insured Home Mortgages

HUD Handbook 4330.4, REV-i                   FHA Single Family Insurance Claims
HUD Handbook 4350.4                          Insured Multifamily Mortgagee Servicing and Field
                                             Office
HUD Handbook 4700.2                          Title I Lender Approval Handbook

LASS User’s Manual”                          Lender Assessment Subsystem (LASS) Policy
°
   The 1999 transmittal pages for HUD Handbook 4150.2 specified that most of4150.1 was being incorporated
into the new 4150.2 except for several chapters and paragraphs. The inclusion of 4150.1 in this listing of
applicable handbooks may give the mistaken impression that all of4150.l is applicable, when it is not.
11
   Information on LASS and the related submission procedures and requirements are contained in the LASS
User’s Manual. which can be found at hftp:1www.hud.ov officeshsi.isth:lasslass usermanual.cfm. Ifa user
experiences technical problems while using the LASS system or has any accounting or auditing questions, the


                                                    7-37
                                                                                                     12/2012
                                                                               2000.04 REV-2 Change 12



         If the program participant does not have this reference material, it may be obtained by
         accessing HUD’s Client Information and Policy System (I1UDCLIPS) at
         http://www.hud.gov/offices/adrn/hudclips/i ndex,cfm, or it may be ordered from HUD’s
         Direct Distribution System by telephone at ($00) 767-7468: in a letter addressed to
         HUD. Customer Service Center. Room B-100, 451 Seventh St.. SW. Washington. DC
         20410: or by fax at (202) 708-2313.

7-11     Technical Assistance.

        On behalf of the HUD Secretary, the Lender Approval and Recertification Division
        determines the acceptability of all audited financial statements submitted by FHA
        approved lenders.      Therefore, it is important that such submissions meet the
        requirements delineated in this chapter and HUD Handbook 4060.1, REV-2. If a
        program participant has questions related to HUD’s audited financial statements’
        requirements, the participant may contact the helpline at 202-755-7400 or submit an
        email to 1ass”iihud.gov.




user should contact the Office of Lender Activities and Program Compliance at (202) 755-7400. The user may
also email any technical LASS or accounting-related questions to LASShud.gov.



                                                    7-38
                                                                                                    12/2012
                                                                  2000.04 REV-2 Change 12


                                                                              Attachment A


                       FIIA Title I Lenders Adjusted Net Worth Computation*
                                          -




Stockholders; equity (net worth)                                       $_________   (a)
       Per balance sheet


Less unacceptable assets                                               $_________   (b)


Adjusted net worth for HUD purposes                                    $________    (c)
   (c) (a)-(b)


Less minimum net worth required                                        $1,000,000 (d)



Adjusted net worth above/below minimum net worth required              $________    (e)
   (e)   =   (c)-(d)




*FHA loan activity is not required.




                                               7-39
                                                                                      12/2012
                                                                                 2000.04 REV-2 Change 12


                                                                                                Attachment B

                           FIIA Title II Lenders Adjusted Net Worth Computation*
                                               -




Stockholders; equity (net worth)                                                        $________
                                                                                                      (a)
      Per balance sheet


Less unacceptable assets                                                                $_________    (b)


Adjusted net worth for HUD purposes                                                     $________     (c)
      (c)    =   (a)-(b)



Less minimum net worth required                                                         $1,000,000 (d)



Adjusted net worth above/(below) minimum net worth required                            $________      (e)
   (e)   =   (c)-(d)




*Schedule is effective immediately. Title II lenders without any FHA loan activity may continue to use this
computation after May 20, 2013.




                                                     7-40
                                                                                                       12/2012
                                                                                               _________
                                                                                               __________
                                                                                               __________
                                                                                               __________
                                                                                               __________
                                                                                               _________
                                                                                               __________
                                                                                               __________
                                                                                               __________
                                                                                               __________
                                                                                                _________




                                                                                        2000M4 REV-2 Change 12


                                                                                                       Attachment C

               Title II Single Family Program Lenders’ Adjusted Net Worth Computation
                                                 (Effective After May 20, 2013)

FHA servicing portfolio* at (end of fiscal year under audit)                                                (a)
             *FIUD..FljAinsured single-family mortgages only. Include HECMs at maximum claim amount.

                  FHA originations FHA-insured Title II loan originations
                                         —




                  during the fiscal year                                                                    (b)
                  FHA purchases FHA-insured Title II third-party
                  originator purchases during the fiscal year                                               (c)

Total FHA loan activity [(d) (a)±(b)+(c)]=                                                                  (d)

                  FHA-insured Title II loan originations retained at
                  the fiscal yearend                                                                        (e)
                  FHA-insured Title II third-party originator purchases
                  retained at the end of fiscal year                                                        (f)

Adjustments [(g) (e)+(t)] =                                                                                 (g)

Total adjusted FHA loan activity [(h) (d)-(g)]       =                                                      (h)

Net worth required                                                                              $1 .000MOO (i)
If(h)        $25 million, skip lines (j) and (k) and insert (i) on line (o).

Additional net worth required                                                                               (j)
lf(h)> $25,000,000, then (j) = (h)(25,000,000)*(1%).

Total net worth j(k)** (i)+(j)j  =                                                                          (k)
        If line (k) <$2,500,000, insert line (k) on line (o).
        If line (k)> $2,500,000, insert $2,500,000 on line (o).
        **
           After May 20, 2013, the maximum net worth required will be $2.5 million.

Stockholders’ equity (net worth) per balance sheet                                                          (I)

Less unacceptable assets                                                                                    (m)

Adjusted net worth [(n) (l)-(m)]   =                                                                        (n)

Minimum net worth required                                                                                  (o)

Adjusted net worth above/(below) required minimum amount ftp) (n) (0)1              =                       (p)


                                                               7-41
                                                                                                            12/2012
                                                                                                 __________(p)
                                                                                             _________
                                                                                             ____________
                                                                                             ___________
                                                                                             __________
                                                                                             __________
                                                                                             _________
                                                                                             ___________
                                                                                             __________
                                                                                             ___________
                                                                                             __________
                                                                                             ___________
                                                                                             __________




                                                                                    2000.04 REV-2 Change 12


                                                                                                      Attachment D

         Title 1! Multifamily Program Servicers Adjusted Net Worth Computation
                                                                 -




                                             (Effective After May 20, 2013)

FHA    servicing
                   portfolio* at (end of fiscal year under audit)                                           (a)
       *HUD..FFIA_jnsured single-family mortgages only. Include l-IECMs at maximum claim amount.

            FHA originations FHA-insured Title II loan originations
            during the fiscal year                                                                          (b)
            FHA purchases FHA-insured Title 11 third-party
                                     —




            originator purchases during the fiscal year                                                     (c)

Total FHA loan activity [(d) (a)+(b)+(c)1                                                                   (d)

             FHA-insured Title II loan originations retained at
             the fiscal yearend                                                                             (e)
             FHA-insured Title II third-party originator purchases
             retained at the end of fiscal year                                                             (0
Adjustments [(g) (e)(f)1
                     =                                                                                      (g)

Total adjusted FHA loan activity [(h) (d)-(g)]   =                                                          (h)

Net worth required                                                                               $1 M00,000 (i)
lf(h) $25 million, skip lines (j) and (k) and insert (i) on line (o).

Additional net worth required                                                                               (j)
lf(h)> $25,000,000, then (j)     =   (h)(25,000,000)*(0.5%).

Total net worth [(k)**    = (i)+(j)j                                                                        (k)
     If line (k) <$2,500,000, insert line (k) on line (o).
     If line (k)> $2,500,000, insert $2,500,000 on line (o).
        After May 20, 2013, the maximum net worth required will be $2.5 million.

Stockholders’ equity (net worth) per balance sheet                                                          (1)

Less unacceptable assets                                                                                    (m)

Adjusted net worth [(n) (l)-(m)1
                             =                                                                              (n)

Minimum net worth required                                                                                  (o)

Adjusted net worth above (below) required minimum amount [(p) (n)               =     —
                                                                                          (o)j



                                                          7-42
                                                                                                             12/2012
          ______________________________(‘Parent”)
___________________________
____________________________________




                                                                           2000.04 REV-2 Change 12



                                                                                         Attachment E
                   ILLUSTRATiVE CORPORATE GUARANTY AGREEMENT

                        U.S. Department of Housing and Urban Development
                                   Federal Housing Administration


Whereas,                                              is the parent company of
                                 (the “Subsidiary”), an institution with FHA lender identification
number
                                   and

Whereas, the Subsidiary is currently a Lender in good standing and approved by the Federal Housing
Administration (“Fl-IA”) to participate in FHA programs; and

Whereas, the Subsidiary accounts for less than forty percent (40%) of the Parent’s assets; and

Whereas, as a condition precedent to FHA allowing the Subsidiary to continue to participate in
FHA programs, FHA requires that the Parent promises the performance by it of actions necessary
for the Subsidiary to meet the obligations required to maintain approval for participation in FHA
programs (“Corporate Guaranty”);

Now, therefore, in consideration of FHA allowing the Subsidiary to continue to participate in FHA
programs, and for other good and valuable consideration, the receipt and sufficiency of which are
hereby acknowledged, the parent agrees as follows:

   1.    Guaranty. The Parent hereby irrevocably promises to FHA the prompt and unconditional
         performance of any actions necessary for the Subsidiary to meet the obligations required to
         maintain approval for participation in FHA programs (‘Approval Obligations”) in accordance
         with the requirements of 24 CFR Part 202 et seq. and the Fl-IA Title 11 Mortgagee Approval
         Handbook 4060.1. REV-2, as amended, modified, or supplemented from time to time (the
         “Handbook”). The obligations of the Subsidiary include but are not limited to the obligation
         of FHA-approved participants to meet ongoing net worth and liquidity requirements.

         In the event that FHA determines that the Subsidiary has failed to meet or maintain Approval
         Obligations, the Parent shall be liable for any sanctions, fees, debts, or damages so ordered by
         FHA relating to such failure. Except to the extent that actions taken by Fl-IA against the
         Subsidiary cause the promises made by Parent with respect to the Subsidiary to be satisfied, in
         the event Fl-IA terminates the Subsidiarys approval to participate in FHA programs, the
         Parent hereby agrees to reimburse FHA for any and all actual and direct losses, damages, costs
         and expenses (including, without limitation, reasonable attorney’s fees) resulting from the
         nonperformance or nonfulfillment of the Subsidiary of FHA program requirements and all
         legal and other expenses of or for the collection of payments due to the Subsidiary.

         In the event that any payment to FHA in respect of the obligations promised by the Parent
         pursuant to this Corporate Guaranty is rescinded or must otherwise be returned for any reason
         whatsoever, the Parent shall remain liable with respect of such obligations as if such payment



                                                  7-43
                                                                                                 12/2012
                                                                         2000.04 REV-2 Change 12


     had not been made. During the term of this Corporate Guaranty, the Parent shall not he
     discharged or released hereunder by reason of the discharge or release of the Subsidiary from
     its obligations under the Handbook and related agreements for any reason, including surrender
     by’ the Subsidiary of its Fl-IA lender approval: a discharge in bankruptcy. receivership, or other
     proceeding: a stay or other enforcement restriction; or any other reduction, modification,
     impairment, or limitation of the liability of the Subsidiary. FHA shall not be obligated to tile
     any claim relating to the obligations promised by the Parent pursuant to this Corporate
     Guaranty in the event that the Subsidiary becomes subject to a bankruptcy or reorganization or
     similar proceeding, and the failure of FRA to so file shall not affect the Parent’s obligations
     hereunder.

2.   Make Well Agreement. If Subsidiary fails to meet ongoing net worth and liquidity
     requirements set forth in the regulations at 24 CFR part 202 and the Handbook, the Parent
     shall make or cause to be made cash payments to Subsidiary in such amount as is required to
     meet such requirements. Parent shall make the cash payments required by this Section not
     later than thirty (30) Business Days following the date on which Subsidiary’s net worth and
     liquidity amounts fall below HUD’s minimum requirements.

3.    Independent Obligation. The obligation of the Parent under this Corporate Guaranty shall be.
      in each instance, absolute, irrevocable, and unconditional and independent of the obligations of
     the Subsidiary. Parent may not assign its rights or delegate its obligations under this Corporate
     Guaranty without FHA’s prior written consent. FHA may proceed directly against the Parent
     to enforce its rights under this Corporate Guaranty without proceeding against or joining the
     Subsidiary. The Parent hereby waives any rights it may have to compel FHA to proceed first
     against the Subsidiary. Neither the exercise of any remedies against the Subsidiary nor the
     sale, enforcement, or realization of any of the servicing rights shall (except to the extent that
     such actions cause the obligations guaranteed by the Parent to be satisfied) in any way affect
     the Parent’s obligations hereunder, even though any rights which the Parent may have against
     such Subsidiary or others may be extinguished, diminished, or otherwise affected by such
     action.

4. No Waiver; Cumulative Rights. FHA may grant any extension of time or indulgence to the
   Subsidiary for the payment of any sums due or take any note or other obligation or any security
   for the payment of any sum or sums due or to become due without notice to the Parent and
   without thereby in any releasing or affecting the liability of the Parent tinder this Corporate
   Guaranty. No failure on the part of FHA to exercise and no delay in exercising any right,
   remedy. or power hereunder shall operate as a waiver thereof, nor shall any single or partial
   exercise by FHA of any right, remedy, or power hereunder preclude any other or future
   exercise of any right, remedy, or power. Each and every right, remedy, and power hereby
   granted to FHA or allowed it by law or other agreement shall be cumulative and not exclusive
   of any other and may be exercised by FHA at any time or from time to time.

5.   Cost of Enforcement. The Parent agrees to indemnify FHA for all out-of-pocket third-party
     costs and expenses, including but not limited to reasonable attorneys’ fees incurred or paid by
     FHA in enforcing this Corporate Guaranty, whether or not litigation is commenced, if the
     Parent defaults in any payment owing by it hereunder.




                                              7-44
                                                                                              12/2012
                                                                         2000.04 REV-2 Change 12



6.   Governing Law and Consent to Jurisdiction. This Corporate Guaranty shall be governed by
     and construed in accordance with the Federal law of the United States of America. To the
     extent that Federal law does not apply, the laws of the State of New York shall apply. The
     Parent agrees that the United States of America District Court for the District of Columbia shall
     have exclusive jurisdiction to hear and determine any claims or disputes pertaining directly or
     indirectly to this Corporate Guaranty or to any matter arising here from or related hereto. The
     Parent hereby expressly submits and consents in advance to such jurisdiction and venue in any
     action or proceeding either commenced by FFIA or brought against the Parent in such court.

7. No Oral Change. This Corporate Guaranty may not be changed or amended except by a
   writing signed by the party against whom enforcement of such change or amendment is sought,
   and no obligation of the Parent shall be released or waived except by a writing signed by FHA.

8.   Parent’s Representations and Warranties. The Parent hereby represents and warrants to
     FHA as follows:

     a.   The Parent is duly organized, validly existing, and in good standing under the laws of the
          jurisdiction of its organization and has all requisite power and capacity to enter into this
          Corporate Guaranty and to perform its obligations hereunder. The Parent’s execution and
          delivery of this Corporate Guaranty and any related agreements or instruments and the
          consummation of the transactions contemplated hereby has been duly authorized by all
          requisite action, and no further action or approval is required in order to constitute this
          Corporate Guaranty as a binding and enforceable obligation of the Parent:

     b. The Parent’s execution and delivery of this Corporate Guaranty does not violate any
        provision of law or regulation or any order or any court or other agency or instrumentality
        or government (including but not limited to a supervisory agreement, memorandum of
        understanding, cease and desist order, capital directive, supervisory directive, or consent
        decree);

     c.   The execution, delivery, and performance of this Corporate Guaranty and any related
          agreements or instruments by the Parent, its compliance with the terms hereof and thereof,
          and consummation of the transactions contemplated hereby and thereby will not violate,
          conflict with, result in any material breach of, constitute a material default under, be
          prohibited by, or require any additional approval under its by-laws or any instrument or
          agreement to which it is a party or by which it is bound;

     d. All consents, licenses, clearances, authorizations and approvals of, and registrations and
        declarations with any governmental authority or regulatory body necessary for the due
        execution, delivery, and performance of this Corporate Guaranty have been obtained and
        remain in full force and effect, and all conditions thereof have been duly complied with,
        and no other action by and no notice to or filing with any governmental authority or
        regulatory body is required in connection with the execution, delivery, or performance of
        this Corporate Guaranty: and

     e.   This Corporate Guaranty constitutes a legal, valid, and binding obligation of the Parent
          enforceable against the Parent in accordance with its terms, subject to bankruptcy,


                                                7-45
                                                                                               12/2012
                                                                             2000.04 REV-2 Change 12


              insolvency. reorganization. moratorium, and other laws of general applicability relating
              to or affecting creditors’ rights and to general equity principles.


     9.   Termination. This Corporate Guaranty shall be terminated if and when the Subsidiary has
          relinquished its FT-IA lender approval, has transferred its Fl-IA mortgages to an approved FT-IA
          lender with FHA’s consent, and has satisfied all outstanding obligations to FHA. This
          Corporate Guaranty shall not terminate, and this section shall in no way limit FHA’s rights in
          the event FHA is entitled to proceed against the Parent under Section 1 above.

     10. Notices. All notices or demands on the Parent shall be deemed effective when received,
         shall be in writing, and shall be delivered by hand or by registered mail or by facsimile
         transmission promptly confirmed by registered mail, addressed to the Parent at:

                  Parent Address:



                  Parent Fax #:

or to such other address or fax number as the Parent shall have notified FHA in a written notice
delivered to FHA in accordance with the related Guaranty Agreements.

In witness whereof, the undersigned has caused this Corporate Guaranty to be executed by a duly
authorized officer and its corporate seal to be affixed and attested by its Secretary in accordance
with express authority of its Board of Directors.

Dated:

Attest:                                                    By:


(Secretary)                                                (Authorized Officer)




(Seal)




                                                   7-46
                                                                                                  12/2012
